Office of Inspector General
    Audit Report

 CONTRACT TOWERS CONTINUE TO
  PROVIDE COST-EFFECTIVE AND
 SAFE AIR TRAFFIC SERVICES, BUT
  IMPROVED OVERSIGHT OF THE
      PROGRAM IS NEEDED
     Federal Aviation Administration

      Report Number: AV-2013-009
     Date Issued: November 5, 2012
           U.S. Department of
                                                                 Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Final Report: Contract Towers                                           Date:    November 5, 2012
           Continue To Provide Cost-Effective and Safe Air
           Traffic Services, but Improved Oversight of the
           Program Is Needed
           Report No. AV-2013-009

  From:    Jeffrey B. Guzzetti                                                          Reply to
                                                                                        Attn. of:   JA-10
           Assistant Inspector General for
              Aviation and Special Program Audits

    To:    Acting Federal Aviation Administrator

           FAA’s Federal Contract Tower (FCT) Program (the Program) comprises
           250 contract towers in 46 States and 4 U.S. Territories and provides services to a
           wide range of users, including general aviation, commercial, cargo, and military
           operators. Since its inception 30 years ago, the Program has been successful in
           providing low-cost air traffic control services at airports that otherwise would not
           have received these services, increasing the level of safety at these airports for
           pilots and the surrounding local communities.

           Between 1998 and 2003, we conducted four reviews evaluating various aspects of
           the FCT Program. 1 Overall, we found that the Program successfully provided air
           traffic services to low-activity airports at lower costs than the Agency could
           otherwise provide. We also found little difference in safety or the quality of
           services provided at low activity towers whether they were operated by FAA or by
           contractors. Finally, we found that users were supportive of the Program and
           believed the services they received at contract towers were comparable to FAA
           towers.



           1
               OIG Report Number AV-1998-147, “Federal Contract Tower Program,” May 18, 1998; OIG Report Number AV-
               2000-079, “Contract Towers: Observations on FAA's Study of Expanding the Program,” April 12, 2000; OIG Report
               Number AV-2002-068, “Audit Report on Subcontracting Issues of the Contract Tower Program,”
               December 14, 2001; OIG Report Number AV-2003-057, “Safety, Cost, and Operational Metrics of the Federal
               Aviation Administration's Visual Flight Rules Towers,” September 4, 2003. OIG reports are available on our Web
               site at http://www.oig.dot.gov.
                                                                                                                      2


The House Committee on Appropriations, in its report accompanying the Fiscal
Year (FY) 2011 Transportation, Housing and Urban Development, and Related
Agencies bill, requested that we provide an update to our previous reviews.
Accordingly, our audit objectives were to evaluate the FCT Program’s (1) cost-
effectiveness and (2) safety benefits and overall user satisfaction. This audit was
conducted in accordance with generally accepted Government auditing standards.
Exhibit A details our scope and methodology. Exhibit B lists the organizations we
visited or contacted.

RESULTS IN BRIEF
Contract towers continue to provide air traffic control services at a lower cost than
similar FAA towers. Based on our review of 30 randomly selected contract and
30 FAA towers with a comparable level of operations, a contract tower cost, on
average, about $1.5 million less to operate than a similar FAA tower. 2 This
difference was mainly due to lower staffing and salary levels at contract towers
versus similar FAA towers. However, there are areas where FAA can strengthen
financial controls to better oversee the Program. In particular, the program office
does not review annual labor hours worked by the contractors to ensure that
staffing provisions in the contract are followed. This lack of oversight could lead
to non-compliance with contract requirements and possible overpayments to
contractors.

Also, contract towers had a significantly lower number and rate of safety
incidents 3 compared to similar FAA towers. For example, the 240 contract towers
in our review had 197 safety incidents in FY 2010, compared to 362 at 92 similar
FAA towers. FAA safety evaluations also found fewer operational deficiencies
with contract towers in areas such as improper radio communications by
controllers. In addition, users remain strongly supportive of the Program, citing
satisfaction with the quality and safety of its services. However, there are
opportunities for FAA to improve safety oversight of contract towers. For
example, contract towers are not included in voluntary reporting systems for safety
incidents, such as the Air Traffic Safety Action Program (ATSAP) that is currently
in place at all FAA facilities. 4 Finally, FAA has recently implemented a new risk-
based facility oversight system that relies heavily on reported safety data to
determine when towers are reviewed. However, this may cause some contract

2
    Using FY 2010 data, we compared personnel compensation and benefits, travel and transportation, supplies,
    materials, and insurance costs for a sample of 30 contract and 30 FAA towers with similar air traffic density.
3
    These safety incidents include operational errors, operational deviations, and runway incursions. An operational error
    occurs when an air traffic controller does not maintain minimum separation between two aircraft or between an
    aircraft and terrain or obstacles. An operational deviation occurs when a controller allows an aircraft to enter
    airspace managed by another controller without prior coordination and approval. A runway incursion is any incident
    involving an unauthorized aircraft, vehicle, or person on a runway.
4
    ATSAP is a voluntary, non-punitive safety reporting program established by the FAA to encourage air traffic facility
    employees to voluntarily report safety and operational concerns.
                                                                                                               3


towers to be evaluated less frequently in the future, which would be counter to
recent legislation that requires regular safety assessments of contract towers.

We are making recommendations to improve FAA’s internal controls and
oversight of contractual and safety aspects of the FCT Program.

BACKGROUND
In 1982, FAA began the FCT Program as a pilot program to contract air traffic
services for five low-activity “level 1” control towers that were closed as a result
of the Professional Air Traffic Controllers Organization strike. By 1993, the
Program had grown to 27 towers, and in 1994 Congress provided funding for a
multi-year program to convert additional FAA low-activity towers to contract
operations. The Program was further expanded in 1998 when Congress provided
funding for a cost-sharing program, which allows airports that would not normally
qualify for the FCT Program access by permitting its sponsors to pay for a portion
of the costs to operate the tower, with FAA providing at least 80 percent of the
cost.

Today, there are 250 towers in the FCT Program; 228 towers are fully funded by
FAA, 16 are part of the cost-share program, and 6 towers are used by the Air
National Guard. 5 Three contractors operate the towers in seven geographic areas.
The current contracts, which run from February 1, 2010, to September 30, 2014,
are worth nearly $600 million. The administrative functions of the Program are
overseen by FAA’s Contract Tower and Weather Group (CTWG), 6 with safety
oversight provided by the Agency’s Aviation Safety Organization. FAA is
requesting $138 million in FY 2013 to operate the FCT Program, $8 million of
which is for the cost-share program.

CONTRACT TOWERS CONTINUE TO PROVIDE COST-
EFFECTIVE SERVICES, THOUGH FAA CAN IMPROVE ITS
OVERSIGHT OF THE PROGRAM
Contract towers continue to provide cost-effective air traffic services, with the
average contract tower costing about $1.5 million less to operate than a
comparable FAA tower. This cost difference is primarily due to fewer staff at
contract towers who receive lower salaries compared to similar FAA-operated
towers. However, FAA can improve oversight of the FCT Program by ensuring
annual labor hours worked by the contractors meet contract requirements.
5
    The six Air National Guard Towers are included in the FCT Program under a special agreement with the Department
    of Defense.
6
    CTWG serves as the technical and programmatic focal point for the Contract Weather Observation (CWO) and FAA
    Contract Tower (FCT) programs. CTWG establishes standard operating procedures (SOPs) and processes for the
    CWO and FCT programs to ensure FAA standards, orders, and procedures are achieved in a quality and timely
    manner.
                                                                                                                 4


Operating Costs at Contract Towers Are Significantly Less Than
Comparable FAA Towers
Contract towers continue to operate at a lower cost than comparable FAA towers.
We selected a statistical sample of 30 contract towers, which we matched with
30 FAA towers with similar air traffic densities. 7 We evaluated the FY 2010
operating costs for each of the contract and FAA towers in our sample to
determine the annual cost difference. These costs included air traffic personnel
compensation and benefits, travel and transportation, supplies, materials, and
insurance. Infrastructure, maintenance, and equipment costs for FAA and contract
towers were not included in our analysis because, under terms of the contract, FCT
contractors are not responsible for these costs.

Based on our sample, the average cost to operate a contract tower in FY 2010 was
about $537,000, compared to $2.025 million to operate an FAA tower, a
difference of $1.488 million. 8 The difference in cost is primarily attributable to
two factors:

    • Contract towers are staffed at lower levels than comparable FAA towers.
      The contract towers in our audit sample had an average of 6 air traffic
      personnel while the FAA towers had an average of 16 air traffic personnel (see
      table 1). In FY 2010, staffing levels at the 240 contract towers ranged from 4
      to 9 air traffic personnel, while staffing ranges at the 92 FAA towers ranged
      from 7 to 27 personnel. 9

    • Contract tower controllers are paid less than FAA controllers. Contract
      tower controllers’ salaries are based on Department of Labor (DOL) wage
      rates, which are lower than the salaries paid to FAA controllers. For example,
      based on current DOL rates, an air traffic controller at a contract tower near
      Tampa, FL, would receive base pay of about $56,000 per year, whereas an
      FAA-employed air traffic controller in Sarasota, FL, an area with similar costs
      of living, would receive base pay ranging from about $63,000 to $85,000 per
      year, depending on the controller’s experience.




7
    Density is defined as the average number of operations at a tower per hour the facility is open.
8
    FAA’s FY 2010 estimated cost to administer the FCT Program ($2.23 million or about $9,000 per FCT) was not
    included in our cost calculation. See Exhibit E for a summary of our cost difference estimate.
9
    Air traffic personnel are defined as air traffic controllers, supervisors, and management.
                                                                                         5


Table 1. Cost and Staffing Differences Between 30 Contract Towers
and 30 Comparable FAA Towers
                       Average Air Traffic      Average FY 2010 Cost    Average Number of
                                 Density                               Air Traffic Personnel
FAA Tower                            15.55               $2,025,104                  16.23
Contract Tower                       15.34                 $536,911                   6.03
Average Difference                       0.21            $1,488,193                  10.20
Source: OIG analysis based on FAA data

FAA Can Improve Its Oversight of the Contractual and Operational
Aspects of the Program
While contract towers continue to operate at a lower cost than comparable FAA
towers, FAA has opportunities to improve its oversight of the contractual and
operational aspects of the FCT Program. Our 1998 review of the FCT Program
found that contract towers were not staffed in accordance with contractor staffing
plans, raising concerns that the Government was being billed for services that
were not actually provided. In response to our report, FAA included a provision in
subsequent contracts to enhance oversight of contractor performance. This
provision requires contractors to submit a staffing plan that includes the number of
controllers that will work at the tower and the total annual number of hours those
controllers will work, exclusive of vacation, holiday, and sick leave. Once FAA
approves the staffing plan, the contractors must comply with the staffing levels
and hours of service called for in the plan, and actual hours worked must be within
plus or minus 3 percent of the approved plan. If the contractor works less than
97 percent of the hours specified in the contract, the amount paid to the contractor
could be reduced for each hour not worked.

However, our current audit found that the effectiveness of this control is limited
because FAA does not review the actual annual hours worked by contractors or
verify that the hours billed by contractors are accurate. According to a CTWG
official, no one in the Agency’s contracting office had reviewed the actual annual
hours worked by the three contractors to ensure they met contractual requirements.
Instead, the program office only reviewed monthly reports provided by the three
contractors and accepted those reports. As a result, FAA may be paying for
services that have not been provided and missing opportunities to recoup funds
due to the lack of a validation process.

In addition, officials from the CTWG office were not aware of staffing practices at
some contract towers. According to a CTWG official, none of the contractors had
submitted staffing plans for contract towers that included part-time staffing.
However, we found two towers during our site visits that used an alternative work
schedule allowing two employees or more to voluntarily share the responsibilities
                                                                                                                  6


of one full-time position, and receive salary and benefits on a pro-rata basis. The
contract does not prohibit part-time employees at contract towers but CTWG
officials were unaware of the job-sharing at these two towers until we brought it to
their attention.

WHILE CONTRACT TOWERS CONTINUE TO PROVIDE SAFE
SERVICES AND ARE SUPPORTED BY USERS, ADDITIONAL
OVERSIGHT IS NEEDED
Overall, contract towers had a lower number and rate of safety incidents. FAA
facility evaluations also found fewer safety/operational-related issues with contract
towers than with comparable FAA towers. In addition, users continue to support
the Program and are satisfied with the safety and quality of the services provided
by contract towers. However, there are opportunities for FAA to improve safety
oversight of contract towers. For example, contract towers do not have voluntary
reporting systems for safety incidents that are similar to FAA towers. In addition,
FAA’s new risk-based oversight system may cause some low-risk towers, such as
contract towers, to be evaluated less frequently in the future.

Contract Towers Have a Lower Number of Reported Safety Incidents
and Deficiencies Than Comparable FAA Towers
We compared the 240 contract towers and 92 comparable FAA towers 10 and found
that in FY 2010 contract towers reported both a lower number and rate of safety
incidents than comparable FAA towers (see table 2).

Table 2. Number and Rate of FY 2010 Safety Incidents at Comparable
Contract and FAA Air Traffic Control Towers

                     Total Number of Safety Incidents              Incident Rate Per One-Million Operations

                   Operational    Operational        Runway          Operational       Operational         Runway
Towers
                       Errors      Deviations      Incursions            Errors         Deviations       Incursions

240 Contract                 18              12           167                1.24              0.83           11.55
92 FAA                       52              35           275                4.54              3.06           24.01
Source: OIG analysis of FAA data

Contract towers also had a significantly lower number of deficiencies identified by
FAA during facility evaluations. FAA conducts these periodic evaluations to
determine if air traffic facilities, including contract towers, are in compliance with
FAA directives and to identify possible safety, procedural, training, and/or
administrative deficiencies. Using the same audit sample that we used for our cost
comparison, we reviewed facility evaluations for 30 contract towers conducted

10
     See Exhibit A for an explanation of how our universe of contract towers and comparable FAA towers were selected.
                                                                                     7


between May 2006 and September 2010 and 30 comparable FAA towers
conducted between January 2007 and September 2010. These evaluations
identified a total of 156 deficiencies at the 30 contract towers and 338 deficiencies
at the 30 FAA towers. Some of the identified deficiencies at both contract and
FAA towers included outdated or incomplete training records, managers
inadequately conducting facility quality assurance reviews, controller
supplemental training not being completed, and improper position relief briefings
and radio communications by controllers.

Users Are Satisfied With the Level and Quality of Service Provided by
Contract Towers
As we have reported previously, pilots, flight instructors, airport officials, fixed-
based operators, as well as representatives from airport and general aviation
organizations, support the FCT Program. Specifically, users at 12 randomly
selected contract towers and 7 randomly selected FAA towers were satisfied with
the services provided by contract towers and the 3 contractors and believed the
services they receive were comparable to similar FAA towers. In several
instances, pilots were surprised to learn that towers they frequently interacted with
were actually contract towers, and described the services provided by similar FAA
and contract towers as “seamless.”

National and facility officials from the National Air Traffic Controllers
Association (NATCA), who represent controllers at 63 contract towers, similarly
support the cost-share portion of the Program. However, they had concerns
regarding controller staffing and training at contract towers that they believe could
compromise safety. They noted that contract towers have much lower staffing
levels than comparable FAA towers, are often single-staffed for portions of the
day, and that controller certification training at contract towers can take as little as
30 days, while at an FAA facility it can take from 1 to 5 years.

Despite NATCA’s concerns, FAA safety officials, local airport officials, pilots,
and other contract tower users generally stated that contract towers operate safely
and did not have concerns about staffing practices, including periods of single
staffing. In one case, a representative from a general aviation organization stated
that she received excellent services from a contract tower in West Virginia, even
during a time of day when it was staffed with only one controller. Airport and
general aviation representatives also stated that without the FCT Program many
small airports would not have the financial resources needed to operate these
towers and believed that towers with periods of single-staffing would be safer than
having no tower at all.

With regard to concerns over training time, FAA’s CTWG approves staffing levels
for contract towers and requires contract tower controllers to meet the same
                                                                                                                8


certification requirements as FAA controllers and to be certified by FAA. In
addition, most contract tower controllers are former FAA or military controllers
who must have a Control Tower Operator license and between 6 months and
2 years experience in order to be hired. Conversely, FAA generally hires
controllers for its air traffic facilities with little or no air traffic experience who
require more training in order to certify at its facilities.

Accurate Incident Reporting at Contract Towers Is Critical to
Maintaining Safety
While contract towers continue to operate in a safe and efficient manner, there are
improvements that FAA can make to ensure the Program’s continued safety,
particularly in safety incident reporting. Contract towers must follow the same
process for reporting and documenting safety incidents as FAA facilities.
However, according to two FAA studies conducted between 2009 and 2010,
contract towers had a lower number of reported runway incursions than
comparable FAA towers between FY 2001 and FY 2008, and in FY 2009 contract
towers had a lower runway incursion reporting rate than FAA towers. 11 During
subsequent FAA facility evaluations of 17 contract towers, the Agency determined
that about 30 percent of the contract tower controllers interviewed did not know
the current definition of a runway incursion and 40 percent did not know the
criteria for classifying a runway incursion. FAA also found that two-thirds of
facilities reviewed had not submitted runway safety action plans for the previous
2 years.

In light of these findings, managers from FAA’s Runway Safety Program Office
met with contractors and emphasized the importance of runway incursion
prevention and reporting. Subsequently, a 2010 FAA study found that more recent
data showed runway incursions reporting at contract towers had increased sharply.
However, contract towers still must rely on controllers to self-report safety
incidents, and unlike FAA air traffic control facilities, contract towers are not
included in voluntary reporting systems such as ATSAP, which allows controllers
to report safety violations without fear of reprisal through legal or disciplinary
actions. FAA is taking steps to include contract towers into a voluntary reporting
system, but has yet to require contractors to implement a similar system.

Contract Towers May Not Receive the Same Level of Safety Oversight
in the Future
FAA will have to determine if its new facility oversight system will sufficiently
monitor contract towers. Prior to October 2010, facility safety evaluations, FAA’s
key mechanism to oversee contract towers, were conducted every 3 years for all
FAA and contract towers. In January 2012, FAA transitioned to a risk-based

11
     “Study of Runway Incursion Reporting at Federal Contract Towers,” ATO’s Office of Safety, December 2010.
                                                                                                 9


oversight system as its primary method to oversee air traffic facilities. Under the
new system, safety incident data entered by air traffic personnel is analyzed to
determine if specific safety problems or trends exist at air traffic facilities. Based
on this analysis, FAA will then focus its oversight to respond to those trends.
However, if data are unavailable due to a lower rate of occurrence, are unreliable,
or there are no trends to analyze, some low risk towers, including contract towers,
could go years without being evaluated. Should there be lengthy periods between
reviews of contract towers under this risk-based system, the system may not meet
the intent of new legislation 12 that requires the Secretary to “establish uniform
standards and requirements for regular safety assessments” of contract towers.

CONCLUSION
The FCT Program has successfully contributed to FAA’s goal of ensuring the
safety and cost-effectiveness of the air traffic control system. However, the
continued success of the Program will depend on effective follow through by FAA
to enhance how it collects and uses safety data on contract towers so that they
receive the appropriate level of oversight and to improve controls over the
Program’s contractual aspects to protect against any potential misuse of funds.

RECOMMENDATIONS
We recommend that FAA:

1. Develop a process to validate invoices and timecards submitted by FCT
   contractors annually to (a) ensure that hours billed were actually worked and
   met contract requirements, and (b) recover any overpayments made to the
   contractors.

2. Modify FCT contracts to incorporate a voluntary reporting system, such as
   ATSAP, at contract towers to ensure more comprehensive reporting of safety
   incidents.

3. Implement a policy that will ensure its risk-based facility oversight system
   allows for regular assessments of contract towers, as prescribed by Congress.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
We provided FAA with our draft report on September 5, 2012, and received its
formal response on October 10, 2012. FAA’s response is included in its entirety as
an appendix to this report. FAA concurred with all three of our recommendations

12
     FAA Modernization and Reform Act of 2012, Sec. 147, Public Law 112-95, February 14, 2012.
                                                                                 10


and proposed appropriate action plans. Based on FAA’s response, we believe the
Agency met the intent of all three recommendations and we consider them
resolved pending completion of the planned actions.
Since we issued our draft report, FAA has taken steps to improve its oversight of
the Program, which is cited in the Agency’s response. These steps include
developing new procedures to ensure contractual staffing requirements are met—
such as revising the audit process to validate contract tower controller timecards—
and conducting quarterly reviews of vendor’s monthly staffing reports for actual
hours worked compared with the base-lined contract. FAA has also modified the
vendors’ contracts to require a voluntary reporting system at contract towers, and
is finalizing its new risk-based oversight system that will provide safety oversight
of all air traffic facilities, including contract towers. However, FAA’s response
indicates that the Agency will not implement these changes until the end of this
year or the beginning of next year. We believe that implementing these changes is
critical to ensure the safety and financial success of the Program. Accordingly, we
request that FAA provide us with documentation once the new procedures have
been implemented.

ACTIONS REQUIRED
FAA’s planned actions for all three recommendations are responsive, and its target
action dates for the recommendations are appropriate. However, in accordance
with DOT Order 8001.C, we request that FAA provide our office with
documentation showing that it has implemented the new oversight procedures by
the target action dates indicated in its response.
We appreciate the courtesies and cooperation of FAA representatives during this
audit. If you have any questions regarding this report, please contact me at (202)
366-0500, or Robert Romich, Program Director, at (202) 366-6478.

                                         #

cc: DOT Audit Liaison, M-1
    FAA Audit Liaison, AAE-100
                                                                                11



EXHIBIT A. SCOPE AND METHODOLOGY
We conducted our work from June 2011 through September 2012 in accordance
with generally accepted Government auditing standards. Those standards require
that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives.

To determine the cost effectiveness of the FCT Program, we utilized a universe of
240 contract towers that as of February 2011 were under contract with FAA, and
excluded 6 towers in the Program that were operated on behalf of the Air National
Guard. We also utilized a universe of 92 FAA towers that the CTWG provided us
in February 2011 that it considered comparable to contract towers based on ATC
Levels and FY 2010 total number of operations. The OIG statistician, using
FY 2009 and FY 2010 numbers of operations and hours of service, calculated the
average density for each of the towers in the universe. The statistician then
selected a probability proportional to size (where size was density) sample of
30 contract towers, which we used to select 30 similar FAA towers by matching
the average density of each contract tower to a FAA tower. Then, we reviewed the
FCT contract and determined FAA costs compared to contractor costs. We
analyzed cost figures obtained from FAA's Office of Budget for each of the
30 contract towers and 30 similar FAA towers. These costs included personnel
compensation and benefits, travel and transportation, supplies, materials, and
insurance. Infrastructure, maintenance, and tower equipment costs were not
included in our analysis. Based on the sample of 30 FAA and 30 contract towers,
we calculated the FY 2010 average cost to operate an FAA tower and a contract
tower and the difference in FY 2010 average cost between the two groups.

To determine air traffic staffing levels at FAA and contract towers, we analyzed
staffing data obtained from FAA’s Office of Financial Services and FAA’s
Contract Tower and Weather Group for 92 FAA towers and 240 contract towers.
We included air traffic controllers, supervisors, and air traffic management in our
calculation of staffing levels.

To evaluate management controls established by FAA to administer the FCT
Program, we reviewed contractual agreements between FAA and FCT contractors
and FAA Orders on policies and procedures for administering the Program. We
held interviews and obtained information from FAA officials in the Air Traffic
Organization (ATO), Office of Financial Services, and the Office of Aviation
Policy and Plans. We also interviewed officials from the three FCT contractors.

To evaluate the safety of operations between FAA and contract towers, we
reviewed incident data for each of the 240 contract towers and 92 FAA towers for

Exhibit A. Scope and Methodology
                                                                                 12


FY 2010 provided by ATO’s Office of Safety (ATO-S). We then calculated the
rate of operational errors/deviations and runway incursions per million operations
for 240 contract towers and 92 FAA towers. In addition, we reviewed facility
safety evaluations conducted by FAA between May 12, 2006 and September 29,
2010 for 30 contract towers and between January 24, 2007 and September 29,
2010 for 30 FAA towers from FAA’s Facility Safety Assessment System (FSAS).
We identified deficiencies and determined whether our sample of 30 FAA and
30 contract towers were in compliance with FAA directives and procedures. We
also interviewed officials from FAA’s ATO, FCT contractors, and personnel from
7 FAA and 12 contract towers. We reviewed FAA’s 2010 Study of Runway
Incursion Reporting at Federal Contract Towers and analyzed FAA Orders
concerning Quality Assurance and Quality Control. Lastly, we reviewed
Congressional language contained in FAA’s Modernization and Reform Act of
2012.

To determine the quality of service provided by contract towers and user
satisfaction, we visited 7 FAA towers and 12 contract towers which were selected
using a stratified probability proportional to size with replacement sample design.
At these facilities we met with Air Traffic Managers, union officials, pilots, fixed
base operators, airport directors. We also met with representatives from airport
and general aviation organizations and NATCA.




Exhibit A. Scope and Methodology
                                                                           13


EXHIBIT B. ORGANIZATIONS VISITED OR CONTACTED
FAA Headquarters, Washington, DC

   Air Traffic Organization
   •   Contract Tower and Weather Group (CTWG)
   •   Mission Support
   •   Strategic Planning and Performance Group
   •   Office of Safety

   Office of Financial Services
   • ATO Finance
   • Office of Budget
   • Office of Acquisition and Business

   Policy, International Affairs and Environment
   • Office of Aviation Policy and Plans

FAA Field Locations

   • Office of Safety, Quality Assurance Group and Quality Control Group, Fort
     Worth, Texas

FAA Air Traffic Control Towers

   •   Addison Tower, Addison, Texas
   •   Fort Lauderdale Executive Tower, Fort Lauderdale, Florida
   •   Hillsboro Tower, Hillsboro, Oregon
   •   Meacham Tower, Fort Worth, Texas
   •   Palomar Tower, Carlsbad, California
   •   Santa Monica Tower, Santa Monica, California
   •   Vero Beach Tower, Vero Beach, Florida




Exhibit B. Organizations Visited or Contacted
                                                                        14


Federal Contract Towers

   •   Albert Whitted Tower, St. Petersburg, Florida
   •   Danbury Tower, Danbury, Connecticut
   •   Gainesville Tower, Gainesville, Florida
   •   Georgetown Tower, Georgetown, Texas
   •   Goodyear Tower, Phoenix, Arizona
   •   Jefferson Tower, Jefferson City, Missouri
   •   Joplin Tower, Webb City, Missouri
   •   Oxford Tower, Oxford, Connecticut
   •   Ryan Field Tower, Tucson, Arizona
   •   Salem-McNary Field Tower, Salem, Oregon
   •   Southwest Oregon Regional North Bend Tower, North Bend, Oregon
   •   Sugar Land Tower, Sugar Land, Texas

FCT Program Contractors

   • Midwest Air Traffic Control Service, Inc.
   • Robinson Aviation (RVA), Inc.
   • Serco, Inc.

Industry Groups

   • National Air Traffic Controllers Association (NATCA)
   • Aircraft Owners and Pilots Association (AOPA)
   • American Association of Airport Executives (AAAE)
   • National Business Aviation Association (NBAA)




Exhibit B. Organizations Visited or Contacted
                                                                                                  15


        EXHIBIT C. LIST OF CONTRACT TOWERS (AS OF MAY 2012)
                                             Tower                                                 Tower
State               Airport Name                     State              Airport Name
                                                ID                                                   ID
AK        Bethel                              BET    CT      Tweed-New Haven                        HVN
AK        Kenai                               ENA    CT      Waterbury                              OXC
AK        King Salmon                         AKN    FL      Albert Whitted                         SPG
AK        Kodiak                              ADQ    FL      Boca Raton                             BCT
AL        Brookley                            BFM    FL      Cecil Field                            VQQ
AL        Dothan                              DHN    FL      Charlotte County Airport               PGD
AL        Tuscaloosa Municipal                TCL    FL      Flagler County Airport                 XFL
AR        Fayetteville                        FYV    FL      Gainesville                            GNV
AR        Northwest Arkansas Regional         XNA    FL      Hollywood/North Perry                 HWO
AR        Rogers Municipal-Carter Fld (CS)    ROG    FL      Jacksonville/Craig                     CRG
AR        Springdale Municipal (CS)           ASG    FL      Key West                               EYW
AR        Texarkana Muni/Webb Fld             TXK    FL      Kissimmee Municipal                    ISM
AZ        Chandler                            CHD    FL      Lakeland Municipal                     LAL
AZ        Flagstaff Pulliam                   FLG    FL      Leesburg Regional                      LEE
AZ        Glendale                            GEU    FL      Melbourne                              MLB
AZ        Goodyear                            GYR    FL      Naples                                 APF
AZ        Laughlin International               IFP   FL      New Smyrna Beach Municipal Arpt        EVB
AZ        Ryan Field                          RYN    FL      Ocala Airport                          OCF
AZ        Williams Gateway                    IWA    FL      Opa Locka                              OPF
CA        Castle                              MER    FL      Ormond Beach Municipal                 OMN
CA        Chico Municipal                     CIC    FL      Page Field                             FMY
CA        Fullerton                           FUL    FL      Panama City/Bay County                 ECP
CA        Hawthorne                           HHR    FL      Pompano Beach                          PMP
CA        Mather                              MHR    FL      St Augustine                           SGJ
CA        Modesto                             MOD    FL      Stuart/Whitham                         SUA
CA        Oxnard                              OXR    FL      Titusville/Cocoa                        TIX
CA        Palmdale                            PMD    GA      Anthens Municipal                      AHN
CA        Ramona                              RNM    GA      Fulton County                          FTY
CA        Redding                             RDD    GA      Gwinnett County                        LZU
CA        Riverside                           RAL    GA      Macon                                  MCN
CA        Sacramento Executive                SAC    GA      Mc Collum                              RYY
CA        Salinas Municipal                   SNS    GA      SW Georgia/Albany-Dougherty            ABY
CA        San Carlos                          SQL    GU      Agana, Guam                            GUM
CA        San Diego Brown Field               SDM    HI      Kalaeloa (John Rogers Field) (ANG)     JRF
CA        San Luis Obispo                     SBP    HI      Keahole-Kona                           KOA
CA        Santa Maria                         SMX    HI      Lihue                                   LIH
CA        Victorville                         VCV    HI      Molokai                                MKK
CA        Whiteman                            WHP    IA      Dubuque                                DBQ
CA        William J. Fox/Lancaster            WJF    ID      Friedman Memorial/Hailey               SUN
CO        Eagle County                        EGE    ID      Idaho Falls                            IDA
CO        Front Range                         FTG    ID      Lewiston-Nez Perce County              LWS
CO        Grand Junction                      GJT    ID      Pocatello Municipal                    PIH
CT        Bridgeport                          BDR    IL      Bloomington/Normal                     BMI
CT        Danbury Municipal                   DXR    IL      Decatur                                DEC
CT        Groton- New London                  GON    IL      So. Illinois/Carbondale                MDH
CT        Hartford-Brainard                   HFD    IL      St. Louis Regional                     ALN



        Exhibit C. List of Contract Towers (as of May 2012)
                                                                                                 16


                                              Tower                                               Tower
State               Airport Name                      State              Airport Name
                                                 ID                                                  ID
IL        Waukegan Regional                    UGN    MS      Hawkins Field                        HKS
IL        Williamson County (CS)              MWA     MS      Meridian/Key Field (ANG)             MEI
IN        Monroe County/ Bloomington (CS)      BMG    MS      Olive Branch                         OLV
IN        Columbus Municipal                   BAK    MS      Stennis                              HSA
IN        Gary Regional                        GYY    MS      Tupelo Regional                      TUP
IN        Muncie/Delaware County (CS)           MIE   MT      Gallatin Field/Bozeman               BZN
KS        Forbes Field                         FOE    MT      Kalispell/Glacier Park               GPI
KS        Garden City Regional Airport (CS)    GCK    MT      Missoula                             MSO
KS        Hutchinson Municipal                 HUT    NC      Concord                              JQF
KS        Johnson County Executive             OJC    NC      Hickory                              HKY
KS        Manhattan Regional                   MHK    NC      Kinston                              ISO
KS        New Century                           IXD   NC      New Bern                             EWN
KS        Philip Billard Municipal             TOP    NC      Smith Reynolds (Winston Salem)        INT
KS        Salina Municipal                     SLN    ND      Minot                                MOT
KY        Barkley Regional                     PAH    NE      Central Nebraska/Grd Island (CS)     GRI
KY        Owensboro/Daviess County            OWB     NH      Boire Field/Nashua                   ASH
LA        Acadiana Regional                    ARA    NH      Lebanon Municipal                    LEB
LA        Alexandria International (ANG)       AEX    NJ      Trenton                              TTN
LA        Chennault                            CWF    NM      Double Eagle II                      AEG
LA        Houma Terreborne                     HUM    NM      Farmington Municipal                 FMN
LA        Shreveport-DT                        DTN    NM      Lea County/Hobbs (CS)                HOB
MA        Barnes Municipal                     BAF    NM      Santa Fe County Municipal            SAF
MA        Beverly                              BVY    NV      Henderson                            HND
MA        Hyannis                              HYA    NY      Francis F. Gabreski                  FOK
MA        Lawrence                             LWM    NY      Niagara Falls                        IAG
MA        Martha's Vineyard                    MVY    NY      Rome-Griffiss                        RME
MA        New Bedford                          EWB    NY      Stewart                              SWF
MA        Norwood                             OWD     NY      Tompkins County                       ITH
MA        Worcester                            ORH    OH      Burke Lakefront                      BKL
MD        Easton                               ESN    OH      Cincinnati Muni/Lunken               LUK
MD        Frederick                            FDK    OH      Columbus Airport (Bolton Field)      TZR
MD        Martin State                         MTN    OH      Cuyahoga County                      CGF
MD        Salisbury-Wicomico County            SBY    OH      Ohio State University                OSU
MD        Washington Co. Reg'l/ Hagerstown     HGR    OK      Ardmore Municipal (CS)               ADM
MI        Battle Creek                         BTL    OK      Enid Woodring Muni                  WDG
MI        Detroit City                         DET    OK      Lawton Municipal                     LAW
MI        Jackson (CS)                         JXN    OK      Stillwater                          SWO
MI        Sawyer Gwinn                         SAW    OK      Univ of Oklahoma/Westheimer          OUN
MN        Anoka                                ANE    OK      Wiley Post                           PWA
MN        St. Cloud Regional                   STC    OR      Klamath Falls (ANG)                  LMT
MO        Branson Airport                      BBG    OR      McNary Field                         SLE
MO        Columbia                             COU    OR      Medford                              MFR
MO        Jefferson City Memorial (CS)          JEF   OR      Pendleton Municipal                  PDT
MO        Joplin Regional (CS)                  JLN   OR      Redmond                              RDM
MO        Rosecrans Mem'l/St. Joseph (ANG)      STJ   OR      Southwest Oregon Regional            OTH
MP        Saipan International                 GSN    OR      Troutdale                            TTD
MS        Golden Triangle Regional Airport     GTR    PA      Arnold Palmer Regional               LBE
MS        Greenville Municipal                 GLH    PA      Capital City                         CXY




        Exhibit C. List of Contract Towers (as of May 2012)
                                                                                                     17


                                                    Tower                                             Tower
State                 Airport Name                            State              Airport Name
                                                       ID                                               ID
 PA        Lancaster                                 LNS      TX      Sugarland                        SGR
 PA        University Park                           UNV      TX      Tyler                            TYR
 PA        Williamsport/Lycoming Co. (CS)             IPT     TX      Victoria                         VCT
 PR        Isla Grande                               SIG      TX      Waco                            CNW
 PR        Rafael Hernandez (Aquadilla)              BQN      UT      Ogden-Hinckley Municipal         OGD
 SC        Donaldson Center                          GYH      UT      Provo Municipal                  PVU
 SC        Grand Strand/Myrtle Beach                 CRE      VA      Charlottesville-Albemarle        CHO
 SC        Greenville Downtown                       GMU      VA      Lynchburg                        LYH
 SC        Hilton Head Airport                       HXD      VI      Henry E. Rohlsen Airport         STX
 SD        Rapid City Regional                       RAP      WA      Bellingham Intl                   BLI
 TN        McKeller-Sipes                            MKL      WA      Felts Field                      SFF
 TN        Millington                                NQA      WA      Olympia                          OLM
 TN        Smyrna                                    MQY      WA      Renton                           RNT
 TX        Arlington Municipal                       GKY      WA      Tacoma Narrows                   TIW
 TX        Brownsville Intl                          BRO      WA      Walla Walla Regional (CS)        ALW
 TX        Denton Municipal                          DTO      WA      Yakima                           YKM
 TX        Easterwood                                CLL      WI      Appleton                         ATW
 TX        Fort Worth-Spinks (CS)                    FWS      WI      Central Wisconsin                CWA
 TX        Georgetown                                GTU      WI      Chippewa Valley (Eau Claire)     EAU
 TX        Grand Prairie (CS)                        GPM      WI      Kenosha Muni                     ENW
 TX        Laredo Int'l                              LRD      WI      La Crosse                        LSE
 TX        Lonestar Executive Airport                CXO      WI      Rock County                      JVL
 TX        McAllen                                   MFE      WI      Timmerman                       MWC
 TX        McKinney Municipal                         TKI     WI      Waukesha County                  UES
 TX        New Braunfels Municipal                   BAZ      WI      Wittman Regional                 OSH
 TX        Redbird                                   RBD      WV      Greenbrier Valley                LWB
 TX        Rio Grand Valley (Harlingen)              HRL      WV      Morgantown                      MGW
 TX        San Angelo/Mathis Field                   SJT      WV      Parkersburg/Wood County          PKB
 TX        San Marcos                                HYI      WV      Wheeling Ohio County             HLG
 TX        (Galveston) Scholes Int'l                 GLS      WY      Cheyenne (ANG)                   CYS
 TX        Stinson Municipal                         SSF      WY      Jackson Hole                     JAC
        ANG: Air National Guard Tower; CS: Cost-Share Tower
        Source: FAA




        Exhibit C. List of Contract Towers (as of May 2012)
                                                                                                                          18


        EXHIBIT D. LIST OF 92 COMPARABLE FAA TOWERS
                                                      Tower                                                                 Tower
State          Tower Name                                            State      Tower Name
                                                        ID                                                                     ID
AK             Juneau Tower                            JNU           IL         Aurora Tower                                 ARR
AK             Merrill Tower                           MRI           IL         Chicago Executive Tower                      PWK
AZ             Falcon Tower                            FFZ           IL         Downtown Tower                               CPS
AZ             Grand Canyon Tower                      GCN           IL         Dupage Tower                                 DPA
AZ             Prescott Tower                          PRC           IN         Lafayette Tower                              LAF
AZ             Scottsdale Tower                        SDL           KY         Bowman Tower                                 LOU
CA             Brackett Tower                          POC           LA         Lakefront Tower                              NEW
CA             Burbank Tower                           BUR           MA         Hanscom Tower                                BED
CA             Camarillo Tower                         CMA           MA         Nantucket Tower                              ACK
CA             Chino Tower                             CNO           MD         Andrews Tower                                ADW
CA             Concord Tower                           CCR           MI         Ann Arbor Tower                              ARB
CA             El Monte Tower                          EMT           MI         Pontiac Tower                                PTK
CA             Gillespie Tower                         SEE           MI         Traverse City Tower                          TVC
CA             Hayward Tower                          HWD            MI         Willow Run Tower                              YIP
CA             Livermore Tower                         LVK           MN         Crystal Tower                                MIC
CA             Monterey Tower                          MRY           MN         Flying Cloud Tower                           FCM
CA             Montgomery Tower                        MYF           MN         St Paul Tower                                STP
CA             Napa Tower                              APC           MO         Downtown Tower                               MKC
CA             Ontario Tower                           ONT           MO         Helena Tower                                 HLN
CA             Palm Springs Tower                      PSP           MO         Spirit Tower                                 SUS
CA             Palo Alto Tower                         PAO           ND         Grand Forks Tower                            GFK
CA             Palomar Tower                           CRQ           NE         Eppley Tower                                 OMA
CA             Reid-Hillview Tower                     RHV           NE         Lincoln Tower                                LNK
CA             Sacramento Tower                        SMF           NH         Manchester Tower                             MHT
CA             San Diego Tower                         SAN           NJ         Caldwell Tower                              CDW
CA             San Jose Tower                          SJC           NJ         Morristown Tower                            MMU
CA             Santa Monica Tower                      SMO           NJ         Teterboro Tower                              TEB
CA             Sonoma Tower                            STS           NV         North Las Vegas Tower                        VGT
CA             Stockton Tower                          SCK           NY         Farmingdale Tower                            FRG
CA             Torrance Tower                          TOA           NY         Islip Tower                                   ISP
CO             Broomfield Tower                        BJC           NY         Poughkeepsie Tower                           POU
CO             Pueblo Tower                            PUB           NY         Westchester Tower                            HPN
CT             Bradley Tower                           BDL           OR         Hillsboro Tower                              HIO
DE             Wilmington Tower                        ILG           PA         Allegheny Tower                              AGC
FL             Fort Lauderdale Executive Tower         FXE           PA         Northeast Philadelphia Tower                 PNE
FL             Orlando Executive Tower                 ORL           PR         San Juan Tower                               SJU
FL             Pensacola Tower                         PNS           TX         Addison Tower                                ADS
FL             Sarasota Tower                          SRQ           TX         Alliance Tower                               AFW
FL             St Lucie Tower                          FPR           TX         Beaumont Tower                               BPT
FL             St Petersburg Tower                     PIE           TX         Hooks Tower                                 DWH
FL             Tamiami Tower                           TMB           TX         Meacham Tower                                FTW
FL             Vero Beach Tower                        VRB           VA         Manassas Tower                               HEF
GA             Columbus Tower                          CSG           VA         Patrick Henry Tower                          PHF
GA             DeKalb - Peachtree Tower                PDK           VA         Richmond Tower                               RIC
HI             Maui Tower                              OGG           VI         St Thomas Tower                              STT
ID             Twin Falls Tower                        TWF           WA         Paine Tower                                  PAE
        Source: This list was provided by FAA for comparison purposes only. Currently FAA has no plans to expand the Contract
        Tower Program to additional FAA-operated towers.



        Exhibit D. List of 92 Comparable FAA Towers
                                                                                                                                                                           19

               EXHIBIT E. FY 2010 COST COMPARISON FOR FAA AND CONTRACT TOWERS
                                  FAA Towers                                                                                   Contract Towers
                                                         Avg.                                                                                          Avg.
 Tower ID              Name                State                     FY 2010 Cost           Tower ID                 Name                 State                FY 2010 Cost
                                                        Density                                                                                      Density
  TMB               Tamiami Tower            FL          37.3         $2,088,183.69            CHD                Chandler Tower            AZ         36.6     $770,060.00
  PAO              Palo Alto Tower           CA          33.1         $1,910,114.51            OMN             Ormond Beach Tower           FL         33.4     $526,587.00
  BED              Hanscom Tower             MA          32.4         $2,631,106.52            GYR               Goodyear Tower             AZ         32.2     $650,900.00
  MMU             Morristown Tower           NJ          25.6         $2,254,948.21             TIX             Space Coast Tower           FL         25.6     $603,320.00
  SJU               San Juan Tower           PR          22.1         $2,347,142.97            SDM              Brown Field Tower           CA         22.0     $540,668.00
  GCN            Grand Canyon Tower          AZ          20.7         $1,201,893.82            CRG                  Craig Tower             FL         20.5     $639,004.00
  ADS               Addison Tower            TX          20.2         $2,265,801.54            GEU                Glendale Tower            AZ         20.5     $557,436.00
  PHF            Patrick Henry Tower         VA          19.8         $2,622,386.80            HUM                 Houma Tower              LA         19.8     $428,950.00
  TEB              Teterboro Tower           NJ          17.5         $3,592,653.65            RNT                 Renton Tower             WA         17.7     $497,428.00
  SRQ               Sarasota Tower           FL          17.3         $2,004,577.80             APF                Naples Tower             FL         17.5     $730,984.00
  CCR               Concord Tower            CA          16.1         $1,718.870.90             TKI              McKinney Tower             TX         16.4     $548,767.00
  CDW               Caldwell Tower           NJ          16.0         $1,844,081.56            RBD               Executive Tower            TX         16.2     $591,452.00
  SUS                Spirit Tower            MO          15.4         $2,213,505.89             FUL               Fullerton Tower           CA         15.0     $517,224.00
  NEW              Lakefront Tower           LA          14.5         $1,319,099.44             FTY            Fulton County Tower          GA         14.5     $654,568.00
  PNE           NE Philadelphia Tower        PA          13.4         $1,982,834.26             LEE               Leesburg Tower            FL         13.4     $433,445.00
  ONT               Ontario Tower            CA          13.2         $3,283,849.59            MER                  Castle Tower            CA         13.3     $504,864.00
  OMA                Eppley Tower            NE          12.9         $2,497,667.50            HFD                Hartford Tower            CT         13.1     $641,336.00
  MRY              Monterey Tower            CA          12.4         $1,693,640.43            TTD               Troutdale Tower            OR         12.5     $489,708.00
  ILG             Wilmington Tower           DE          12.3         $2,087,122.71            EWB             New Bedford Tower            MA         12.2     $545,924.00
  SCK               Stockton Tower           CA          11.6         $1,457.939.06            GMU               Greenville Tower           SC         11.5     $510,062.00
  DPA               DuPage Tower              IL         10.8         $2,003,308.79            HHR               Hawthorne Tower            CA         10.8     $514,884.00
  LNK               Lincoln Tower            NE           9.7         $2,237,513.66            MVY           Martha’s Vineyard Tower        MA          9.8     $530,100.00
  MKC             Downtown Tower             MO           9.6         $1,886,787.34            SWF                 Stewart Tower            NY          8.8     $665,812.00
  AGC              Allegheny Tower           PA           8.7         $1,870,950.34            ALN                Regional Tower             IL         8.7     $432,256.00
  MHT             Manchester Tower           NH           8.5         $2,067,532.09            DEC                Decatur Tower              IL         8.2     $463,828.00
  CSG              Columbus Tower            GA           8.1          $761,260.18             HRL               Harlingen Tower            TX          7.6     $546,735.00
   YIP            Willow Run Tower           MI           8.0         $2,186,279.07             FLG               Flagstaff Tower           AZ          7.4     $466,112.00
  HLN                Helena Tower            MT           7.6         $1,774,748.38             IFP               Laughlin Tower            AZ          5.9     $378,188.00
  TWF              Twin Falls Tower          ID           6.5         $1,140,154.73            TXK               Texarkana Tower            AR          5.1     $397,385.00
  BPT              Beaumont Tower            TX           5.1         $1,807,169.72            ADM                Ardmore Tower             OK          4.3     $329,346.00
       Total FY 2010 Costs For 30 Selected FAA Towers                $60,753,125.15                Total FY 2010 Costs For 30 Selected Contract Towers         $16,107,333.00
        Average FY 2010 Cost Per Selected FAA Tower                   $2,025,104.17                 Average FY 2010 Cost Per Selected Contract Tower            $536,911.00
                                                           Difference in FY 2010 Average Cost Per Tower = $1,488,193.07
Source: OIG based on FAA Data




Exhibit E. FY 2010 Cost Comparison for FAA and Contract Towers
                                                                                                                                                         20

       EXHIBIT F. END OF FY 2010 STAFFING LEVELS FOR SELECT FAA AND CONTRACT TOWERS*
                                    FAA Towers                                                                   Contract Towers
                                                        Avg.       Number of ATC                                                     Avg.     Number of ATC
 Tower ID                Name                State                                 Tower ID             Name                State
                                                       Density       Personnel                                                      Density     Personnel
   TMB              Tamiami Tower          FL           37.3            16          CHD              Chandler Tower           AZ     36.6           8
   PAO              Palo Alto Tower        CA           33.1            14          OMN           Ormond Beach Tower          FL     33.4           6
   BED              Hanscom Tower         MA            32.4            17          GYR             Goodyear Tower            AZ     32.2           6
   MMU             Morristown Tower        NJ           25.6            15          TIX            Space Coast Tower          FL     25.6           8
   SJU              San Juan Tower         PR           22.1            19          SDM            Brown Field Tower          CA     22.0           5
   GCN           Grand Canyon Tower        AZ           20.7            11          CRG                Craig Tower            FL     20.5           7
   ADS               Addison Tower         TX           20.2            18          GEU              Glendale Tower           AZ     20.5           6
   PHF            Patrick Henry Tower      VA           19.8            20          HUM               Houma Tower             LA     19.8           5
   TEB              Teterboro Tower        NJ           17.5            25          RNT               Renton Tower            WA     17.7           4
   SRQ               Sarasota Tower        FL           17.3            17          APF               Naples Tower            FL     17.5           8
   CCR               Concord Tower         CA           16.1            13          TKI             McKinney Tower            TX     16.4           6
   CDW              Caldwell Tower         NJ           16.0            15          RBD             Executive Tower           TX     16.2           8
   SUS          Spirit of St. Louis Tower MO            15.4            18          FUL              Fullerton Tower          CA     15.0           5
   NEW              Lakefront Tower        LA           14.5            13          FTY           Fulton County Tower         GA     14.5          10
   PNE           NE Philadelphia Tower     PA           13.4            15          LEE              Leesburg Tower           FL     13.4           6
   ONT               Ontario Tower         CA           13.2            27          MER                Castle Tower           CA     13.3           5
   OMA                Eppley Tower         NE           12.9            19          HFD              Hartford Tower           CT     13.1           7
   MRY              Monterey Tower         CA           12.4            12          TTD             Troutdale Tower           OR     12.5           5
   ILG             Wilmington Tower        DE           12.3            16          EWB            New Bedford Tower          MA     12.2           6
   SCK              Stockton Tower         CA           11.6            12          GMU             Greenville Tower          SC     11.5           6
   DPA               DuPage Tower          IL           10.8            17          HHR             Hawthorne Tower           CA     10.8           5
   LNK               Lincoln Tower         NE            9.7            18          MVY         Martha’s Vineyard Tower       MA      9.8           6
   MKC             Downtown Tower         MO             9.6            16          SWF               Stewart Tower           NY      8.8           9
   AGC              Allegheny Tower        PA            8.7            17          ALN              Regional Tower           IL      8.7           5
   MHT             Manchester Tower        NH            8.5            19          DEC              Decatur Tower            IL      8.2           5
   CSG              Columbus Tower         GA            8.1             7          HRL             Harlingen Tower           TX      7.6           6
    YIP            Willow Run Tower        MI            8.0            19          FLG              Flagstaff Tower          AZ      7.4           5
   HLN                Helena Tower         MT            7.6            13           IFP             Laughlin Tower           AZ      5.9           3
   TWF             Twin Falls Tower        ID            6.5            13          TXK             Texarkana Tower           AR      5.1           5
   BPT              Beaumont Tower         TX            5.1            16          ADM              Ardmore Tower            OK      4.3           5
             Average Number of ATC Personnel at                                               Average Number of ATC Personnel at
                                                                        16.23                                                                     6.03
                   30 Selected FAA Towers                                                         30 Selected Contract Towers

∗ ATC Personnel includes air traffic controllers, supervisors, and management.
Source: FAA




Exhibit F. End of FY 2010 Staffing Levels for Select FAA and Contract Towers
                                                                  21



EXHIBIT G. MAJOR CONTRIBUTORS TO THIS REPORT
Name                                           Title__________

Robert Romich                                  Program Director

Frank Danielski                                Project Manager

Natasha Thomas                                 Senior Analyst

My Phuong Le                                   Analyst

Aaron Rodgers                                  Analyst

Mi Hwa Button                                  Analyst

Petra Swartzlander                             Statistician

Megha Joshipura                                Statistician

Audre Azuolas                                  Writer/Editor




Exhibit G. Major Contributors to This Report
APPENDIX. AGENCY COMMENTS                                                                      22




                    Federal Aviation
                    Administration

Memorandum
Date:      October 10, 2012
To:        Jeffrey B. Guzzetti, Director, Assistant Inspector General for Aviation and Special
           Program Audits
From:      H. Clayton Foushee, Director, Office of Audit and Evaluation, AAE-1
Subject:   Contract Tower Program Audit


The Federal Aviation Administration (FAA) Contract Tower Program has provided safe, cost
effective air traffic control services at low activity airports for over 30 years. The program has
provided an increased level of safety at many airports that otherwise would not have received
these services. The Department of Transportation (DOT), Office of Inspector General (OIG) has
conducted several audits of various aspects of the program. Overall, they have found that
contract towers provide services and outcomes comparable to those provided at FAA-staffed
towers. This draft report continues to validate the previous OIG report findings of cost
effectiveness, safety, and overall user satisfaction with the Federal Contract Tower (FCT)
program. The FAA is pleased the Contract Tower Program is often referred to as one of the
most efficient government programs and a model for government and industry partnerships and
will continue to provide the programmatic oversight necessary to ensure the program’s safety
efficacy and cost effectiveness.

RECOMMENDATIONS AND RESPONSES

Recommendation 1: Develop a process to validate invoices and timecards submitted by FCT
contractors annually to (a) ensure that hours billed are actually worked and met contract
requirements, and (b) recover any overpayments made to the contractor.

FAA Response 1(a): Concur. The current contract language requires the vendor to include and
submit invoices that reflect the hours worked and paid. The contract allows for a lapse of no
more than 60 calendar days between serviced performed and the submission of an invoice.

The FCT Program Office utilizes a monthly tracking sheet, which consists of cost breakdown by
each control tower. Upon receipt of the invoices, the FCT Program Office validates the air
traffic controller costs and checks for discrepancies against the monthly tracking sheet. The FCT
Program Office then compares the actual hours worked with the hours that were approved on the
base-lined contract. The Contracting Officer (CO) will notify the vendor of any discrepancies,
and identify adjustments needed in a resubmitted invoice.


Appendix. Agency Comments
                                                                                              23


The FCT Program Office will improve upon this process by coordinating with the CO to ensure
that the vendors are in compliance with the contract requirements. Currently, the vendors submit
invoices and actual hours worked in separate reports. The CO will notify the vendors that they
must submit actual hours worked in conjunction with the invoices effective October 2012.

The FCT Program Office will further strengthen its internal controls by developing a timecard
audit process to validate the FCT controller’s timecards. The timecard audit process will entail
conducting annual on-site inspections. The vendor will be required to provide a selected number
of air traffic controllers’ timecards. The FCT Program Office will validate the timecards against
the actual hours billed on the vendors’ invoices. The CO will notify the vendor of any
discrepancies. The timecard audit process will be implemented by January 1, 2013.

FAA Response 1 (b): Concur. The contract currently has language for the FAA to recover
overpayments made to contractors. The CO will notify the vendor if the performance levels are
not within the performance range of 97 to 103 percent. If the performance level is below
97 percent, overpayment will be recovered.

The FCT Program Office will improve upon this process by conducting quarterly reviews of the
vendors’ monthly staffing reports for actual hours worked. The staffing reports are then
compared to the hours that were approved on the base-lined contract. The reports are used to
calculate the performance percentage. The quarterly review allows the FCT Program Office to
proactively detect and notify the vendor of low performance levels that could result in the
recovery of overpayment at the end of the year. The quarterly verification of hours will be
implemented by January 1, 2013.

Recommendation 2: Modify FCT contracts to incorporate a voluntary reporting system, such
as ATSAP, at contract towers to ensure more comprehensive reporting of safety incidents.

FAA Response: Concur. The FAA modified all seven FCT contracts in September of 2011.
This requires each vendor to implement a voluntary reporting program. The requirements
identified in the contract mod are currently being implemented by the vendors. The FCT
Program Office and vendors expect the contractual requirements to be fully implemented by
December 31, 2012.

Recommendation 3: Implement a policy that will ensure its risk-based facility oversight
system allows for regular assessments of contract towers, as prescribed by Congress.

FAA Response: Concur. On January 30, 2012, the Air Traffic Organization (ATO) issued
safety orders FAA JO 7210.632, Air Traffic Organization Occurrence Reporting, FAA JO
7210.633, Air Traffic Organization Quality Assurance Program, and FAA JO 7210.634, Air
Traffic Organization (ATO) Quality Control. These orders provide enhanced processes for
collecting safety-related data, analyzing/identifying suspected risk trends, and assessing the
effectiveness of risk mitigations. All FAA facilities and FCTs are required to adhere to all
requirements contained in these orders. In accordance with these orders and the requirement to
conduct safety assessments, ATO Safety and Technical Training (AJI) will establish and
implement an Audits and Assessments Program. The AJI Audits and Assessments Program will


Appendix. Agency Comments
                                                                                                  24


consist of standardized processes and procedures that will be used to conduct ATO assessments.
These standards, procedures, and checklists are scheduled for completion by December 1, 2012.
AJI will determine when to conduct these audits or assessments based on data analyses of
Mandatory Occurrence Reports, Electronic Occurrence Reports, and Voluntary Safety Reports
that identify potential risk within specific Facility, District, Service Area, or National Airspace
System wide. The AJI Audits and Assessments Program may be conducted through various
methods that may include: a review of available data from the Comprehensive Electronic Data
Analysis and Reporting tool, quality control and quality assurance data, Risk Analysis Event
analyses, information from Air Traffic Safety Action Program, direct observations, interviews
with personnel, developing a custom checklist, and other means as appropriate.

Within FAA JO 7210.634, there is a requirement that Field Assessments, referred to as
Compliance Verifications (CV), be conducted. CVs are a means of assessing Air Traffic
Facilities performance and identifying areas for improvement. There are two types of CVs that
can be conducted, Internal Compliance Verification (ICV) and External Compliance Verification
(ECV). ICVs are planned assessments accomplished through the use of a formal checklist and
random sampling methods such as, but not limited to, direct operational observation, discussions
with Service Delivery Point personnel, review of voice or radar data, equipment parameters,
certification parameters, and examination of other documentation. ECVs are assessments of
facilities that are conducted on an as needed basis as determined by the service unit, director of
operations, and/or the Quality Control Group (with the concurrence of the director of
operations). Determinations to conduct ECVs will be based upon data analyses of Mandatory
Occurrence Reports, Electronic Occurrence Reports, and Voluntary Safety Reports which
identifies potential risk within a specific facility. ECVs may be conducted through various
methods that may include: a review of available data; direct observation; interviews with
personnel; developing a custom checklist; and other means, as appropriate. All FAA and FCTs
must conduct a regularly scheduled ICV each Fiscal Year and report their findings.
Additionally, to support oversight efforts, all radar, voice, and other supporting data used to
conduct these assessments must be retained for 12 months following the date of the review.

Information related to the CV process (checklists, reports, facility information, tracking
information, mitigation plans, etc.) are stored in the Compliance Verification Tool (CVT), a
national database developed by AJI. The data in the CVT database supports the analysis of
system trends, the identification of suspected risk trends, and the development of requirements
for safety assessments.

The Audits and Assessment Group will begin their assessments once the standards, procedures,
and checklists are finalized in December 2012. The group will conduct a planned number of
assessments each year that will be determined by data-driven needs and available resources.
They will use the established assessment process and requirements checklists (developed based
on suspected risk trends and other data stored in the CVT) to assess compliance, facility
performance, and the effectiveness of operations in accordance with the ATO safety orders.




Appendix. Agency Comments
